N\

Appendix l\
DISTRICT OF COLUMBIA COURT OF APPEALS

1

No. 18-CO-326
Anthony Brawner a/k/a Anthony Barber,* Appellant,
73

v.

L E If?

p

United States, Appellee.

X^PR30 2020

Appeal from the Superior Court
of the District of Columbia
(FEL-963-03)

DISTRICT OF COLUMBIA
COURT OF APPEALS

(Hon. Lynn Leibovitz, Motions Judge)
(Submitted March 20, 2019

Decided April 30, 2020)

Before GL1CKMAN and THOMPSON, Associate Judges, and FERREN, Senior
Judge.
MEMORANDUM OPINION AND JUDGMENT
Per Curiam: Appellant, Anthony Brawner, challenges the trial court’s denial
of his fourth D.C. Code § 23-110 (2012 Repl.) motion to withdraw his guilty plea to
armed carjacking. He argues that the District of Columbia lacked jurisdiction to
prosecute him for that charge because the carjacking occurred in Maryland. We
affirm.
I.
. On March 29, 2005, appellant pleaded guilty in D.C. Superior Court to seven
offenses, including a count of armed carjacking. The carjacking charge stemmed
from a 2004 incident in which appellant, armed with a gun, robbed a victim in front
Appellant alternately signed his name “Anthony Brawner” and “Anthony
Barber” in his § 23-110 motions.
\

v
it

.1

2

of her Maryland apartment and forced her into the trunk of her own car. He then
drove the victim’s car into the District of Columbia and repeatedly stopped to
remove the victim from the trunk and rape her. Additionally, according to the
victim’s account, appellant removed her from the trunk, forced her to provide the
PIN for her ATM card, and then put her back in the trunk, threatening to kill her if
the PIN was wrong.1 Eventually, the victim was released. She promptly contacted
the Metropolitan Police Department. Appellant was sentenced to an aggregate term
of 51 years for the charges stemming from this and other incidents.
Thereafter, appellant brought three § 23-110 motions challenging the
legitimacy of the carjacking charge on the theory that the District lacked “subject
matter jurisdiction” because the crime was completed in Maryland.2 The motion at
issue in this case is the fourth such motion, and it repeats appellant’s jurisdictional
claim. At no time did appellant challenge the facts as stated above. The trial court
denied the motion without holding a hearing.

We draw these details from a report of the victim’s account that appellant
appended to a previous § 23-110 motion.
2 Although the trial court construed appellant’s initial letter as a § 23-110
motion, bringing the total of previous motions to .four, wejdo.not .c©r*strw®,it^c-.e«.©h
because the letter was not a formal motion and the trial court did not warn appellant
that it intended to treat it like one. See Hardy v. United States, 988 A.2d 950, 963
(D.C. 2010) (holding that a pro se appellant’s letter to a judge was “not properly
characterized as a motion filed under D.C. Code § 23-110” where the letter was not
styled as a motion and appellant’s later motions indicated that he understood the
formal motion process). In contrast, the other filings that the trial court viewed as
§ 23-110 motions were formal motions either captioned with other names or
purportedly brought under other statutory provisions. We agree with the trial court
that these motions fell under § 23-110.
\
\

a
3

II.
We review the trial court’s denial of a § 23-110 motion without an evidentiary
hearing for abuse of discretion.3 Where an appellant’s “allegations . . . would merit
no relief even if true,” we affirm the denial.4
The government argues that appellant’s motion is procedurally barred because
it raises a claim identical to the one he has repeatedly raised. The trial court has
denied each of appellant’s motions not only procedurally but also on the merits. The
courts are not “required to entertain a second or successive motion for similar relief
on behalf of the same prisoner.”5 This is true despite the fact that appellant alleges
a lack of jurisdiction.6 Because the motion at issue is appellant’s fourth motion
requesting the same relief on the same basis, we hold that it is procedurally barred.
Notwithstanding the procedural bar, we will also address the merits of
appellant’s jurisdictional claim because we have not previously done so. Appellant
argues that because his actions in Maryland had already satisfied all the elements of
the District of Columbia’s carjacking statute before he drove into the District, the
District lacked jurisdiction to prosecute him for the carjacking. Even if this claim is
true, appellant would not be entitled to relief because the claim ignores his conduct
within the District.

A'-'

As the government points out, appellant’s theory fails to account for the
continuous nature of his crime. This court has recognized that “a crime may be the
result of a series of acts[,] . . . [t]he direct consequences [of which] may be made to

3 Artis v. United States, 802 A.2d 959, 966 (D.C. 2002).
4 Id.
5 D.C. Code §23-110(e).
6

See Neverdon v. District of Columbia, 468 A.2d 974, 975 (D.C. 1983)
(“[A] 1 though strict principles of res judicata do not apply to motions seeking relief
from an illegal sentence, this does not mean that a prisoner may again and again call
upon a court to repeat the same ruling.”) (internal quotation marks and citations
omitted).

4

occur at various times and in different localities, „7 We have therefore held that the
locality of a continuous crime is “[w]herever any part [of it] is done, „8 « Where [a
criminal act] serves as one of several constituent elements to [a] complete offense,
we have found jurisdiction to prosecute in the Superior Court, even though the
remaining elements occurred outside of the District. ”9
Thus, even if appellant’s actions within the District satisfied only some of the
elements of carjacking, so long as his actions in Maryland were linked with his
actions in the District as part of a continuous crime, he could properly be charged
under the District’s carjacking statute. Appellant’s crime was certainly continuous,
because directly after overpowering the vehicle’s owner and pushing her in the
vehicle’s trunk, appellant drove the vehicle into the District of Columbia with its
owner still trapped in the trunk.
*

The trial court recognized the continuity principle in its previous orders. For
example, the court stated that, “[g]iven the mobile nature of the charges to which
Defendant entered a plea . . . there is no factual or legal merit to his [jurisdictional]
contentions.” The court further found that “[t]he armed carjacking—in which the
complainant was abducted from Maryland, brought into the District of Columbia
while locked in her own trunk, then repeatedly raped—was one criminal
transaction,” and that “[t]he fact that the crime continued as the defendant drove the
stolen car and victim into the District of Columbia, where he continued to assault
the victim, makes the District of Columbia a lawful and appropriate jurisdiction in
which to prosecute the defendant for his crimes.”
Alternatively, even if we did not hold that the crime was continuous,
appellant’s actions within the District would satisfy the elements of carjacking,
irrespective of what events occurred in Maryland. In the District of Columbia, “[a]
person commits the offense of carjacking if, by any means, that person knowingly
or recklessly by force or violence, whether against resistance or by sudden or stealthy
seizure or snatching, or by putting in fear, or attempts to do so, shall take from

7 Adair v. United States, 391 A.2d 288, 290 (D.C. 1978).
Id.
9 United States v. Baish, 460 A.2d 38, 40 (D.C. 1983), abrogated on other
grounds, 80 A.3d 163 (D.C. 2013).

5

another person immediate actual possession of a person’s motor vehicle, »io While
within the District, appellant knowingly and repeatedly took the immediate actual
possession of the victim’s motor vehicle by placing the victim in fear and forcing
her back into the trunk after removing her and raping her. Thus, appellant’s actions
within the District alone are sufficient to satisfy the elements of carjacking.
Whether we consider the entire scope of appellant’s actions or only those that
occurred within the District, we can conclude that the trial court did not abuse its
discretion in finding that the District had jurisdiction to accept his guilty plea to the
charge of armed carjacking. Because appellant’s allegations are procedurally barred
and merit no relief, we affirm the trial court’s denial of his § 23-110 motion

ENTERED BY DIRECTION OF THE COURT

a.

JULIO A. CASTILLO
Clerk of the Court

10 D.C. Code § 22-2803(a)(l) (2019 Supp.).

